C@OQCKLE

Legal Briefs

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850 No.
FERNANDO GABRIEL IRAZU,
Petitioner,

Vs.
MARGARITA OLIVA SAINZ DE AJA,
Respondent.

AFFIDAVIT OF SERVICE

E-Mail Address:

contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 18th day of July, 2019, send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
FERNANDO GABRIEL IRAZU, Pro Se
34 Boulder Brook Road
Greenwich, CT 06830-3514
203-570-8318
fgirazu@gmail.com

Subscribed and sworn to before me this 18th day of July, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary

State of Nebraska
My Commission Expires Nov 24, 2020

2 EC Cll Qudie-h, Che

 

 

Notary Public Affiant

37917
Margarita Oliva Sainz De Aja
10 Indian Pass

Greenwich, CT 06830
203-861-9520
m.olivasainz@gmail.com
